No. _ _ __
ANDREA LEA, in her official capacity

as Auditor of the State of Arkansas,

Applicant,
v.
UNITED STATES,

et al.,

Respondents.

CERTIFICATE OF SERVICE

I, John D. Ohlendorf, a member of the Supreme Court Bar, certify that
I did, on the 28th day of February, 2020, send out from Washington, D.C.,
two packages each containing one copy of the APPLICATION TO THE HON.
JOHN G. ROBERTS, JR. FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT in the above
entitled case. All parties required to be served have been served by thirdparty commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:
Noel J. Francisco
Solicitor General of the United States
Counsel of Record for Respondent United States
DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL

950 Pennsylvania Avenue NW
Room 5616
Washington, DC 20530-0001
(202) 514-2203
supremectbriefs@usdoj.gov

David Charles Frederick
Counsel of Record for Respondent LaTurner
KELLOGG, HUBER, HANSEN,
TODD, EvANS & FIG EL, PLLC

1615 M Street, NW
Sumner Square
Ste 400
Washington, DC 20036
(202) 326-7900
dfrederick@kellogghansen.com

To be filed for:
DAVID H. THOMPSON

Counsel of Record

PETER A. PATTERSON
JOHN D. OHLENDORF
COOPER & KIRK, PLLC

1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com

Counsel for Applicant

Date: February 28, 2020

John D. Ohlendorf
Counsel for Applicant

2

